No. 20-5646

IN THE

Supreme Court of the United States
____________

SEAN JUSTIN OWENS,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

____________

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
____________

SUPPLEMENTAL BRIEF OF PETITIONER
____________

Alec F. Hall
Federal Defender
M. Allison Guagliardo, Counsel of Record
Assistant Federal Defender
Federal Defender’s Office
400 N. Tampa Street, Suite 2700
Tampa, FL 33602
Telephone: (813) 228-2715
Facsimile:
(813) 228-2562
E-mail: allison_guagliardo@fd.org

SUPPLEMENTAL BRIEF OF PETITONER
Petitioner Sean Owens respectfully requests that this Court hold his petition for a writ of
certiorari pending the Court’s decision in Wooden v. United States, No. 20-5279. Question 3 of
Mr. Owens’ petition seeks review of the Eleventh Circuit’s decision that he has three convictions
for offenses “committed on occasions different from one another” as required by the Armed Career
Criminal Act (ACCA), 18 U.S.C. § 924(e)(1). See Pet. i, 12-18. This Court granted certiorari in
Wooden after Mr. Owens filed his petition for a writ of certiorari. See Supreme Court Rule 15.8;
Wooden v. United States, 141 S. Ct. 1370 (Feb. 22, 2021).
Wooden is the first case in which this Court will interpret the ACCA’s different-occasions
provision. The petitioner in Wooden has contended that the appellate courts’ use of a simultaneity
test—where “simultaneously” committed offenses are counted as one for ACCA purposes, but
“successively” committed offenses are counted as different offenses—is atextual and creates
anomalies and absurdities. Br. for Pet. 29-44, Wooden v. United States, No. 20-5279 (May 3,
2021) (“Wooden Pet. Br.”). One such anomaly is that the timing of the offenses “is normally not
an element of the offense” in the prior proceeding and thus may go uncontested, but this detail
ends up having “momentous consequences for a later federal sentence” under the circuits’
simultaneity test. Id. at 37-38 (citing Mathis v. United States, 136 S. Ct. 2243, 2253 (2016);
Wharton’s Criminal Procedure § 511 (12th ed. 1975)).
This Court’s interpretation in Wooden could resolve whether Mr. Owens is eligible for the
15-year mandatory-minimum penalty under the ACCA. Mr. Owens’ ACCA sentence is based on
offenses charged in one charging document in one criminal prosecution in the State of Florida; the
charging document alleged that Mr. Owens committed three drug offenses on March 13, 17, and
20, 2009. Pet. 4-5, 18. According to his federal presentence investigation report (PSR), the same
undercover detectives with the Jacksonville Sheriff’s Office purchased crack cocaine from Mr.

Owens three times within this eight-day period, and Mr. Owens received a concurrent sentence for
these offenses. Doc. 39 (PSR) at ¶ 35.
Mr. Owens argued before the Eleventh Circuit that the dates alleged in the charging
document are not elements under Florida law and, as a result, his convictions in the state
proceeding may not have actually rested on the alleged dates. See Pet. 6. The Eleventh Circuit
rejected that argument, maintaining that the court’s different-occasions determination may be
based on such non-elemental facts taken from the documents approved in Shepard v. United States,
544 U.S. 13 (2005), and that the temporal distinction in the dates established that the offenses were
committed on occasions different from one another. Id.; Pet. App. 5a (citing United States v.
Longoria, 874 F.3d 1278 (11th Cir. 2017)).
Mr. Owens has focused on the Sixth Amendment question presented by the Eleventh
Circuit’s non-elemental decision (Pet. 12-18), but this Court’s statutory interpretation in Wooden
could also resolve Mr. Owens’ question and whether he is eligible for an ACCA sentence. See,
e.g., Iancu v. Brunetti, 139 S. Ct. 2294, 2301 (2019) (“This Court, of course, may interpret
‘ambiguous statutory language’ to ‘avoid serious constitutional doubts.’”) (citation omitted).
Indeed, the petitioner in Wooden has challenged the simultaneity test used by the appellate courts,
including the Eleventh Circuit, and has presented the non-elemental argument in support of his
statutory interpretation. Wooden Pet. Br. 35, 38, 44. Mr. Owens has maintained that he is
ineligible for the ACCA sentence because he has, at most, one prior conviction for ACCA

2

purposes. Pet. 13, 18. Mr. Owens therefore respectfully requests that his petition be held
pending this Court’s decision in Wooden.
Respectfully submitted,
Alec F. Hall
Federal Defender
/s/ M. Allison Guagliardo
M. Allison Guagliardo, Counsel of Record
Assistant Federal Defender
Federal Defender’s Office
400 N. Tampa Street, Suite 2700
Tampa, FL 33602
Telephone:
(813) 228-2715
Facsimile:
(813) 228-2562
E-mail: allison_guagliardo@fd.org

3

